Nicholas J. Bronni
Solicitor General

Direct Dial: (501) 682-6302
nicholas.bronni@arkansasag.gov

May 19, 2020
Hon. Scott S. Harris
Clerk
Supreme Court of the United States
One First Street, N.E.
Washington, DC 20543
Re:

Hamner v. Burls, No. 19-1291

Dear Mr. Harris:
I write on behalf of Respondents Danny Burls et al. to request a 60-day extension of the
deadline for filing a brief in opposition to the petition for a writ of certiorari in this matter. The
response is currently due on June 15, 2020. With this requested extension, the response would
be due on August 14, 2020. Petitioner Charles Hamner does not oppose this request.
A 60-day extension is reasonable and necessary because of other professional obligations.
Along with other routine responsibilities, I and my staff are responsible for litigating multiple
emergency actions related to the COVID-19 pandemic. Those matters are being litigated on a
significantly accelerated timetable and have required a substantial time commitment.
Additionally, the Solicitor General Unit of the Arkansas Attorney General’s Office only recently
assumed responsibility for this matter and will require additional time to become sufficiently
familiar with it to prepare a response to the petition for certiorari.
Sincerely,
/s/ Nicholas J. Bronni
Nicholas J. Bronni

cc: Daniel M. Greenfield, daniel-greenfield@law.northwestern.edu, Counsel for Petitioner

323 Center Street, Suite 200, Little Rock, Arkansas 72201
Office: (501) 682-2007 | Fax: (501) 682-8084

